App. 1
[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
-----------------------------------------------------------------------

No. 18-11796
Non-Argument Calendar
-----------------------------------------------------------------------

D.C. Docket No. 0:09-cr-60331-JIC-1
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
SCOTT ROTHSTEIN,
Defendant-Appellant.
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Florida
-----------------------------------------------------------------------

(September 30, 2019)
Before TJOFLAT, WILLIAM PRYOR and GRANT, Circuit Judges.
TJOFLAT, Circuit Judge:
Scott Rothstein, a federal prisoner, appeals the
District Court’s grant of the Government’s motion to
withdraw a prior motion made pursuant to Federal
Rule of Criminal Procedure 35, which allows the

App. 2
Government to recommend a reduction in sentence if
the defendant “provided substantial assistance in
investigating or prosecuting another person.” Rothstein argues (1) that his plea agreement with the Government did not give the Government any discretion
to withdraw a Rule 35 motion, and (2) that he should
have been entitled to an evidentiary hearing in the
District Court on the Government’s motion to withdraw. Neither of Rothstein’s arguments are meritorious. We affirm the judgment of the District Court.
I.
A criminal information filed on December 1, 2009,
charged Scott Rothstein, a former attorney and chairman of a law firm, with using his firm to perpetuate a
Ponzi scheme. Rothstein was charged with: racketeering, in violation of 18 U.S.C. § 1962(d); conspiracy to
commit money laundering, in violation of 18 U.S.C.
§ 1956(h); conspiracy to commit mail fraud and wire
fraud, in violation of 18 U.S.C. § 1349; and two counts
of wire fraud, in violation of 18 U.S.C. § 1343.
Rothstein would eventually plead guilty to all the
above counts, but before doing so, he entered into a
written cooperation agreement with the Government.
In the agreement, Rothstein promised to cooperate by:
(a) providing truthful and complete information and testimony, and producing documents, records, and other evidence, when
called upon by [the Government], whether in

App. 3
interviews, before a grand jury, or at any trial
or other court proceeding;
(b) appearing at such grand jury proceedings, hearings, trials, and other judicial proceedings, and at meetings, as may be required
by [the Government]; and
(c) if requested by [the Government], working in an undercover role to contact and negotiate with others suspected and believed to be
involved in criminal misconduct under the supervision of, and in compliance with, law enforcement officers and agents.
Rothstein agreed that the Government would have
“sole and unreviewable” discretion to determine the
“quality and significance” of Rothstein’s cooperation
in any investigation or prosecution. The agreement
stated that, if the Government evaluated Rothstein’s
cooperation favorably, it “may . . . make a motion . . .
[under] Rule 35 of the Federal Rules of Criminal Procedure subsequent to sentencing . . . recommending
that the defendant’s sentence be reduced,” but noting
that “nothing in this Agreement may be construed to
require [the Government] to file any such motion.”
Rothstein moved to have the cooperation agreement
filed under seal, and stated in his motion that the
agreement “is intended to be part of the Plea Agreement in this matter.”
On June 9, 2010, the District Court sentenced
Rothstein to 600 months’ imprisonment and three
years of subsequent supervised release. Almost one
year later, on June 8, 2011, the Government filed a

App. 4
motion for reduction of sentence under Rule 35. The
motion stated that while Rothstein’s “cooperation is
not yet complete and will not be complete within one
year of [his] initial sentencing,” the Government was
filing this motion “in an abundance of caution” to “preserve this Court’s jurisdiction under Fed. R. Crim. P.
35(b)(1).”1 Accordingly, the Government asked the
Court not to rule on this motion until the Government
filed a motion to hold a hearing to “advise the Court of
the nature, extent, and value of [Rothstein’s] cooperation.” Further, the motion indicated that the Government “expressly reserves the right to withdraw this
motion if, in the judgment of the [Government],
1

A Rule 35(b)(1) motion to reduce a sentence for “substantial
assistance” must be made by the government within one year of
sentencing. Rule 35 motions can be made after one year, but they
must comport with the heightened showing required by 35(b)(2).
A judge may only reduce a sentence on a motion made more than
one year after sentencing if the defendant’s “substantial assistance” involved:
(A) information not known to the defendant until one
year or more after sentencing;
(B) information provided by the defendant to the government within one year of sentencing, but which
did not become useful to the government until
more than one year after sentencing; or
(C) information the usefulness of which could not reasonably have been anticipated by the defendant
until more than one year after sentencing and
which was promptly provided to the government
after its usefulness was reasonably apparent to
the defendant.
Fed. R. Crim. P. 35(b)(2). The Government’s anticipatory filing
under Rule 35(b)(1) within the one-year limit was therefore to
prevent the need to satisfy one of these more stringent criteria.

App. 5
[Rothstein] should fail to comply with the terms of his
plea agreement, fail to testify truthfully, or falsely implicate any person or entity.” Rothstein’s attorney
joined in the filing of the motion.
More than six years passed. At some point during
this period, the Government concluded that Rothstein
“provided false material information to [the Government] and violated the terms of his plea agreement.”
Accordingly, on September 26, 2017, it moved to withdraw the Rule 35 motion that had not yet been considered by the District Court. The Government reiterated
its “sole discretion” to evaluate Rothstein’s cooperation
and its “expressly reserved . . . right to withdraw” the
Rule 35 motion, which it described as a “placeholder
motion” intended to prevent the expiration of the oneyear time limit after sentencing for Rule 35(b)(1) motions. Rothstein disputed that the Government had the
power to withdraw the motion and requested, at a minimum, that the District Court hold an evidentiary
hearing on the matter. The District Court granted the
Government’s request and withdrew the substantialassistance motion over Rothstein’s objections.
Rothstein appealed. He principally contends that
the Government breached the cooperation agreement
because any discretion that the Government reserved
for itself in that agreement ended when the Government filed its “placeholder” Rule 35 motion in June
2011. If the Government wanted to give itself the right
to withdraw a Rule 35 motion, Rothstein argues, it
“should have included [it]” in the cooperation agreement. He contends that because the word “withdraw”

App. 6
is not to be found within the language of the cooperation or plea agreements, the Government could not,
consistent with the agreement, withdraw an alreadyfiled Rule 35 motion. Without such language, Rothstein
says, he was not adequately warned that the Government could withdraw a substantial-assistance motion. Finally, Rothstein argues that the District Court
needed to hold an evidentiary hearing to determine
whether Rothstein had actually breached the cooperation agreement, in light of his assertion that he provided “extraordinary assistance” to the Government’s
investigation. Since the Government had no discretion
to withdraw the Rule 35 motion, the argument goes, it
would have needed to present proof establishing by a
preponderance of the evidence that Rothstein had materially breached his plea agreement.
In response, the Government contends that the cooperation agreement made it clear that there was no
guarantee that the Government would file a Rule 35
motion – it promised only to consider whether to do so
if it determined that Rothstein had provided “complete
and truthful information.” In its view, Rothstein’s argument that language about withdrawal actually had
to be included in the cooperation agreement “imposes
a rigidly literal approach” that conflicts with “commonsense constructions of contract law [and] with the majority of case law regarding this issue.” Further, the
Government contends that Rothstein was adequately
placed on notice of the possibility of withdrawal because the Government’s Rule 35 motion, which was
signed by Rothstein’s own attorney, “expressly stated

App. 7
that [the Government] reserved the right to withdraw the motion” under certain circumstances. The
Government reiterates, too, that the Rule 35(b)(1) motion was really just a “placeholder motion” to preserve
the one-year time limitation, and that the motion explicitly indicated that the substantiality of Rothstein’s
cooperation could not yet be evaluated at the time of
filing. Finally, the Government quickly dispenses with
Rothstein’s request for an evidentiary hearing, noting
that this case presents a “purely legal question” that
would only require a hearing if there were an allegation that the Government refused to file, or withdrew,
a substantial-assistance motion based on an unconstitutional motive, like race or religion.
II.
Whether the Government has breached a plea
agreement is reviewed de novo by this Court. United
States v. Copeland, 381 F.3d 1101, 1104 (11th Cir. 2004).
Rothstein concedes that the Government would
have had the discretion to choose not to file the Rule
35 motion. This Court has not yet determined whether,
in the instant set of circumstances, there is any analytical difference between the Government withdrawing a
previously filed Rule 35 motion, and the Government
refusing to file a Rule 35 motion at all.2 Rothstein
2

In an unpublished opinion, we held that the District Court
did not err in granting the government’s motion to withdraw a
previously-filed motion under U.S.S.G. § 5K1.1, the substantialassistance provision of the federal sentencing guidelines. United
States v. Jackson, 635 F. App’x 657 (11th Cir. 2015) (unpublished).

App. 8
points to no authority indicating that we should imply
a distinction between the two. Other circuits that have
addressed the issue have disagreed with Rothstein’s
interpretation. See United States v. Hartwell, 448 F.3d
707, 718 (4th Cir. 2006) (“We conclude that the language giving the government ‘sole discretion’ to file a
Rule 35(b) motion also includes the discretion to file a
motion to withdraw it”); see also Stropshire v. United
States, 278 F. App’x 520, 526-27 (6th Cir. 2008) (finding
that the District Court did not err in granting the government’s motion to withdraw a Rule 35 motion because “[t]he government was not in any way obligated
by the plea agreement to file a Rule 35(b) motion”);
United States v. Emerson, 349 F.3d 986, 987-88 (7th
Cir. 2003) (affirming the grant of a motion to withdraw
a Rule 35(b) motion where the motion had been filed to
avoid the one-year deadline, but the government later
determined that the defendant’s cooperation had not
been substantial assistance).
Rothstein claims that United States v. Padilla, 186
F.3d 136 (2d Cir. 1999), is the most persuasive authority applicable to this case. Padilla found error where a
Just like Rothstein, the defendant in Jackson argued that the government could not withdraw a substantial-assistance motion
when no provision of the plea agreement explicitly allowed it to
do so. Id. at 658-59. We declined to find any distinction “between
the government’s refusal to file a motion recommending a reduction in sentence and its withdrawal of one.” Id. at 660. “[E]ither
way,” we stated, “[t]he government would have fulfilled its obligations under the terms of the plea agreement” to “consider whether
[defendant’s] cooperation warranted a [substantial-assistance motion].” Id.

App. 9
District Court allowed the government to withdraw a
substantial-assistance motion, but differs from our
facts in three important respects. First, the plea agreement in that case stated that the government “will” file
a substantial-assistance motion if the defendant provided the requisite cooperation. Padilla, 186 F.3d at
141. In our case, the Government provided no such affirmative promise in Rothstein’s cooperation agreement, only a promise to consider whether to do so.
Second, in Padilla, the government advised the District Court that it had concluded that the defendant’s
assistance had been substantial. Id. at 139. Under our
facts, the Government explicitly told the District Court
that it could not yet evaluate whether Rothstein’s assistance was substantial. Finally, Padilla’s agreement
specifically enumerated the consequences if the defendant breached the plea agreement – and it was integral to the Second Circuit’s analysis that withdrawal
of a substantial-assistance motion was not listed as a
possible consequence. Id. at 142. Rothstein’s cooperation agreement contained no such specific delineation
of potential consequences, aside from the general observation that the Government could choose in its discretion not to file a Rule 35 motion.
Rothstein lists in his brief a variety of plea agreements in other cases that he would have found to be
“adequate” in this case. Notably, none of the plea agreements that he cites to expressly list withdrawal as a
possibility once the government has made a substantial-assistance motion. Finding the right to withdraw
such a motion in the text of these agreements relies on

App. 10
the same type of inferential analysis of the agreement
that Rothstein argues is impermissible here. Furthermore, Rothstein can point to no authority that requires
the express delineation of any possible consequence of
misbehavior in a plea agreement when the defendant
is clearly made aware of the government’s unfettered
discretion to evaluate whether the defendant deserves
a lesser sentence.
Rothstein’s arguments that in his agreement the
Government was required to expressly include a “right
to withdraw” are unavailing. “A plea agreement is, in
essence, a contract between the Government and a
criminal defendant.” United States v. Howle, 166 F.3d
1166, 1168 (11th Cir. 1999). The terms of a plea agreement are interpreted based on what a defendant “could
have reasonably understood the terms of his plea agreement to mean.” United States v. Rewis, 969 F.2d 985,
988 (11th Cir. 1992). In doing so, this court will not apply a “hyper-technical” or “rigidly literal” approach to
interpreting the language. Id. (quoting United States
v. Jefferies, 908 F.2d 1520, 1523 (11th Cir. 1990)). A
strained, artificial reading of the agreement does not
comport with a reasonable defendant’s expectations
when signing a deal with the government.
Rothstein argues that he understood the Government’s retention of sole discretion to decide whether to
file a Rule 35 motion, without more, to preclude any
similar discretion to withdraw a filed Rule 35 motion.
This claim is unsupported by a rational interpretation
of the agreement and by the record. As a general rule,
the government has a “power, not a duty, to file a

App. 11
motion when a defendant has substantially assisted.”
Wade v. United States, 504 U.S. 181, 185, 112 S. Ct.
1840, 1843 (1992); see also United States v. McNeese,
547 F.3d 1307, 1309 (11th Cir. 2008) (applying this
principle to a motion under Rule 35(b)). The government’s refusal to exercise that power may only be questioned if the government’s decision is based on an
unconstitutional motive. United States v. Nealy, 232
F.3d 825, 831 (11th Cir. 2000).3 This Court has emphasized its unwillingness to intrude on the prosecutorial
discretion provided to the government in making substantial-assistance motions. See United States v. Forney, 9 F.3d 1492, 1501 n.4 (11th Cir. 1993).
The cooperation agreement that Rothstein signed
fully retains this level of discretion for the Government
– that is, “sole and unreviewable.” It is true that the
agreement says nothing about withdrawal of a Rule 35
motion. But we see nothing in the plain language of
this agreement that counsels us to limit the Government’s discretion when it comes to withdrawing a
motion.4 Holding that the Government had implicitly
3

Rothstein makes no allegation that the Government’s withdrawal of its Rule 35 motion here was based on any unconstitutional motive, such as race or religion.
4
Consider the Rule 35 motion’s language: “Upon completion
of the defendant’s cooperation, the government will file a motion
for a hearing at which time the government will advise the Court
of the nature, extent, and value of the defendant’s cooperation.”
Suppose, hypothetically, that instead of withdrawing the Rule 35
motion, the Government informed the Court that, in the Government’s discretion, Rothstein’s “assistance” was not at all useful to
the Government’s investigation and no downward variance in
sentencing was warranted. Surely this would be permitted by the

App. 12
relinquished the power to withdraw a placeholder motion would use a technicality to intrude on prosecutorial discretion in this field in a manner that this Court
has continually refused to do. See, e.g., Forney, 9 F.3d
at 1501 n.4; McNeese, 547 F.3d at 1309; Nealy, 232 F.3d
at 831.
Rothstein’s argument claiming that he was not
“warned” of the Government’s discretion to withdraw
the motion is likewise unavailing. The Government’s
Rule 35 motion, which was joined by Rothstein through
the assent of his attorney, specifically stated that the
Government “expressly reserve[d] the right to withdraw this motion” if Rothstein breached his plea agreement, falsely testified, or falsely implicated any person.
Second, that same motion indicated that Rothstein’s
“cooperation is not yet complete,” “[s]ome of the information provided . . . has not yet become useful to the
government,” and requested that the District Court
“stay any ruling on the instant motion” until the
Government informed the Court that Rothstein’s cooperation was complete. These reservations by the Government would have put Rothstein on notice that the
Government was not relinquishing all further discretion with respect to the future of this motion. Rothstein
cooperation agreement, which gives the Government the “sole and
unreviewable” discretion to evaluate the substantiality of Rothstein’s assistance and to communicate that evaluation to the District Court. Rothstein’s implicit argument that the Government
was permitted to do the latter but not the former relies on technicality and evinces an untenable, “rigidly literal” interpretation of
the cooperation agreement, one that this Court refuses to endorse.
See Rewis, 969 F.2d at 988.

App. 13
cannot credibly claim that he had no idea that withdrawal was a possibility.
III.
A district court’s denial of an evidentiary hearing
is reviewed for abuse of discretion. United States v.
Brown, 441 F.3d 1330, 1349-50 (11th Cir. 2006). “An evidentiary hearing is not required where none of the
critical facts are in dispute and the facts as alleged by
the defendant if true would not justify the relief requested.” United States v. Smith, 546 F.2d 1275, 127980 (5th Cir. 1977) (quoting United States v. Poe, 462
F.2d 195, 198 (5th Cir. 1972)).5
An evidentiary hearing to allow Rothstein to present evidence that he complied with the cooperation
agreement, as he requests, is unwarranted. We are
faced with the purely legal question of whether the
Government had full discretion to withdraw its Rule
35 motion based on its own unreviewable evaluation of
Rothstein’s assistance to the investigation – and we
concluded that the Government did have this discretion. No facts that Rothstein can allege regarding his
actual level of cooperation would disturb the Government’s unilateral conclusion that his help was insufficient to warrant a substantial-assistance motion. See
also Wade, 504 U.S. at 185, 112 S. Ct. at 1844 (“[A]
5

In Bonner v. City of Prichard, 661 F.2d 1206, 1209 (11th
Cir. 1981) (en banc), this Court adopted as binding precedent all
decisions of the former Fifth Circuit handed down prior to the creation of the Eleventh Circuit on September 30, 1981.

App. 14
claim that a defendant merely provided substantial assistance will not entitle a defendant to a remedy or
even to discovery or an evidentiary hearing.”) Therefore, the District Court did not abuse its discretion in
denying Rothstein’s request for an evidentiary hearing.
IV.
For the foregoing reasons, the District Court’s order is
AFFIRMED.

App. 15
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 09-60331-CR-COHN
UNITED STATES
OF AMERICA,
v.
SCOTT W. ROTHSTEIN,
Defendant.

/
ORDER
(Filed Apr. 16, 2018)

THIS CAUSE is before the Court upon the Government’s Motion to Withdraw its Motion for Reduction of Sentence [DE 938] (the “Motion”). The Court
has considered the Motion, Defendant Scott Rothstein’s Response [DE 948], the Government’s Reply
[DE 949], and Defendant’s Sur-Reply [DE 952],1 and is
otherwise advised in the premises. As the Motion presents a question of law, an evidentiary hearing is unwarranted. Therefore, for the reasons stated herein,
the Court will grant the Motion, permit the Government to withdraw its Motion for Reduction of Sentence,
1

In light of the special security conditions of Defendant’s
confinement and the effect of same on his ability to confer with
his counsel, the Court will grant Defendant’s Motion for Leave to
File Sur-Reply in Excess of 10 pages [DE 953] and deny the Government’s Motion to Strike Defendant’s Sur-Reply and Motion for
Leave to File Sur-Reply in Excess of 10 Pages [DE 954] so that
Defendant may fully present his position.

App. 16
and deny Defendant’s request for an evidentiary hearing.
I.

BACKGROUND

On January 27, 2010, Defendant Scott Rothstein
pled guilty to RICO conspiracy, conspiracy to commit
money laundering, conspiracy to commit mail and wire
fraud, and two counts of wire fraud. DE 67. Prior to
entry of his guilty plea, Rothstein entered into a plea
agreement with the Government. DE 69. That plea
agreement incorporated by reference a Cooperation
Agreement executed by the parties. DE 75. Pursuant
to the Cooperation Agreement, Rothstein was to fully
cooperate with the Government by, inter alia, “providing truthful and complete information and testimony.”
DE 75-1. The Cooperation Agreement specifically
states that “[i]f in the sole and unreviewable judgment”
of the Government, Rothstein’s “cooperation is of such
quality and significance to the investigation or prosecution of other criminal matters as to warrant the
court’s downward departure from the advisory sentence
calculated under the Sentencing Guidelines,” the Government may move the Court to reduce Rothstein’s
sentence based upon his cooperation. Id. (emphasis in
original). Rothstein, however, expressly acknowledged
and agreed in the Cooperation Agreement that the
Government was not required to file any such motion,
and that the Government’s “assessment of the nature, value, truthfulness, completeness, and accuracy
of [Rothstein’s] cooperation shall be binding” with respect to the determination of whether to file any such

App. 17
motion. Id. On June 9, 2010, this Court sentenced
Rothstein to a fifty year term of imprisonment. DE 290.
On June 8, 2011—the eve of the one-year anniversary of Rothstein’s sentencing—the Government filed
a Motion for Reduction of Sentence and for Stay of Ruling pursuant to Rule 35(b) of the Federal Rules of
Criminal Procedure (the “Rule 35 Motion”). DE 767. In
the Rule 35 Motion, the Government sought a reduction of Rothstein’s sentence “based upon [Rothstein]
having provided substantial assistance to the government in the investigation and/or prosecution of others,”
but because Rothstein’s cooperation was still ongoing,
the Government requested that the Court stay any ruling on the Rule 35 Motion until the completion of Rothstein’s cooperation. Id. The Government explained that
while Rule 35(b)(2)(B) allows a motion for reduction
of sentence to be made more than one year after sentencing with regards to information provided by the
defendant to the Government within one year of sentencing but which did not become useful to the Government until later, the Rule 35 Motion was “filed in an
abundance of caution to preserve this Court’s jurisdiction under Fed.R.Crim.P. 35(b)(1), and to permit the
Court to consider all of [Rothstein’s] cooperation in order to determine the appropriateness of a reduction of
[Rothstein’s] sentence.” Id. ¶ 5. Critically, in the Rule
35 Motion, the Government stated that it “expressly
reserves the right to withdraw this motion if, in the
judgment of the United States, [Rothstein] should fail
to comply with the terms of his plea agreement, fail to
testify truthfully, or falsely implicate any person or

App. 18
entity.” Id. ¶ 7. Rothstein’s counsel joined in the filing
of the Rule 35 Motion. Id. ¶ 8.
On September 26, 2017, the Government filed the
instant Motion seeking to withdraw the previously
filed Rule 35 Motion because, “[i]n the judgment of the
United States, [Rothstein] provided false material information to the government and violated the terms of
his plea agreement.” DE 938 at 2. The Government argues that its discretion as to whether or not to file the
Rule 35 Motion also includes the discretion to withdraw the Rule 35 Motion, and that in the plea agreement and the Rule 35 Motion it expressly retained its
absolute discretion to determine the truthfulness and
completeness of Rothstein’s cooperation and to decide
whether to seek a reduction of his sentence on the basis of his cooperation. Rothstein denies that the Government’s discretion to file the Rule 35 Motion includes
the discretion to withdraw it. He argues that the Government cannot withdraw the Rule 35 Motion because
the plea agreement does not expressly state that the
Government may withdraw any such motion once it
is filed. Rothstein also argues that the Government
has failed to sufficiently allege facts demonstrating a
breach of the plea agreement, and that he is entitled to
an evidentiary hearing on the question of his alleged
breach.
II.

DISCUSSION

The issue before the Court is whether the Government may withdraw its previously filed Rule 35 Motion

App. 19
when (a) the Government indisputably had sole discretion as to whether to file it in the first instance; and (b)
the Rule 35 Motion—which Rothstein’s counsel joined
in filing—expressly reserved for the Government the
right to withdraw it if, in the Government’s sole judgment, Rothstein provided false information to the Government or violated the terms of his plea agreement.
To state the issue is essentially to resolve it. The Government clearly may withdraw the Rule 35 Motion.
As the Government notes, several courts have held
that the discretion to file a Rule 35 motion includes the
discretion to later withdraw that motion. See, e.g.,
United States v. Hartwell, 448 F.3d 707, 718 (4th Cir.
2006); Shropshire v. United States, 278 Fed. Appx. 520,
527 (6th Cir. 2008). The Eleventh Circuit itself has refused to draw a distinction between the Government’s
decision not to file a substantial-assistance motion and
its withdrawal of a previously filed motion. See United
States v. Jackson, 635 Fed. Appx. 657, 660 (11th Cir.
2015). The defendant in Jackson, like Rothstein, executed a plea agreement in which the Government expressly retained its discretion to decide whether it
would file a motion for downward departure pursuant
to U.S.S.G. §5K1.1. The Government made the motion
and then, upon learning that the defendant had committed additional criminal conduct, moved to withdraw
the motion. Like Rothstein, the Jackson defendant argued that while the Government could have declined
to make a motion in the first instance, nothing in the
plea agreement permitted it to withdraw a motion

App. 20
already made. The Eleventh Circuit rejected the defendant’s argument, declaring that:
Mr. Jackson’s position . . . hinges on demonstrating that the language of the plea agreement draws (or at a minimum implies) a
distinction between the government’s refusal
to file a motion recommending a reduction in
sentence and its withdrawal of one. Mr. Jackson points to no language in the agreement
creating such a distinction, fails to identify
what practical purpose such a distinction would
serve, and cites no legal authority for his position. Needless to say, we find his argument
unpersuasive.
The conditional language of the plea agreement only obliges the government to consider
whether Mr. Jackson’s cooperation warranted
recommending a downward departure in sentence. It imposes no limitation on how the
government may choose to exercise that discretion and draws no distinction between filing a motion for downward departure and
later withdrawing a motion so filed. Indeed, it
is difficult to imagine what would form the basis for such a distinction. In both situations
the government would have considered whether
Mr. Jackson’s cooperation warranted a reduced sentence and decided that—as a direct
result of Mr. Jackson’s subsequent criminal
activity—it did not. The government would
have fulfilled its obligations under the terms
of the plea agreement either way.
Id. at 660 (citation omitted).

App. 21
The Eleventh Circuit’s reasoning in Jackson applies equally here. Nothing in Rothstein’s plea agreement or the Cooperation Agreement draws or implies
a distinction between the Government’s refusal to file
a Rule 35 motion and its withdrawal of one. Moreover,
in the Rule 35 Motion itself, the Government expressly
reserved the right to withdraw the motion if, in its
judgment, Rothstein “should fail to comply with the
terms of his plea agreement, fail to testify truthfully,
or falsely implicate any person or entity.” DE 767 ¶ 7.
While Rothstein argues that he did not agree to that
language, he cannot overcome the fact that his attorney expressly joined in the filing of the Rule 35 Motion.
This adequately put Rothstein on notice of the potential consequences of his untruthfulness. See, e.g., Link
v. Wabash R. Co., 370 U.S. 626, 634 (1962) (explaining
that in “our system of representative litigation . . . each
party is deemed bound by the acts of his lawyer-agent
and is considered to have ‘notice of all facts, notice of
which can be charged upon the attorney.’ ”) (quotation
omitted). Accordingly, as Rothstein does not allege that
the Government is acting with an unconstitutional motive,2 the Government is clearly entitled to withdraw
its Rule 35 Motion.
Rothstein’s arguments to the contrary are unavailing. First, Rothstein claims that the Government is
2

See United States v. Nealy, 232 F.3d 825, 831 (11th Cir.
2000) (stating that the government’s Rule 35(b) decision can be
questioned “only to the extent that the government . . . exercise[d]
that power, or fail[ed] to exercise that power, for an unconstitutional motive”).

App. 22
attempting to unilaterally declare a breach of the plea
agreement by Rothstein in order to relieve itself of its
own obligations under that agreement. He contends
that this is improper, since the Government can only
void the agreement if it proves a breach by a preponderance of the evidence. DE 948 at 3 (citing United
States v. Titus, 547 F. App’x 464 (5th Cir. 2013)). But
where Rothstein errs is in assuming that the Government is in fact attempting to relieve itself of its obligations. It is not. The Government is instead acting
pursuant to discretionary authority which the Cooperation Agreement, incorporated into the plea agreement, expressly grants. Under the clear terms of the
Cooperation Agreement, the Government retained
sole, unfettered discretion to decide whether or not to
make a Rule 35 motion. Declining to make the motion—or withdrawing a previously filed motion, which
has the same effect—is thus a valid discretionary
choice and cannot constitute a breach of the Agreement. Accordingly, the Government need not prove
that Rothstein breached the plea agreement to justify
its withdrawal of the Rule 35 Motion.
Rothstein relies primarily upon United States v.
Padilla, 186 F.3d 136 (2d Cir. 1999), a case addressing
a situation where the Government, after learning that
the defendant had committed additional crimes during
the pendency of his cooperation, attempted to withdraw a previously submitted motion for a downward
departure pursuant to U.S.S.G. § 5K1.1. Id. at 138-39.
The Second Circuit held that the defendant’s plea
agreement did not permit such a withdrawal. Id. at

App. 23
140-41. The relevant language in the Padilla plea
agreement directed that “if [the Government] determines that Mr. Padilla has provided substantial assistance. . . . [it] will file a motion pursuant to Section
5K1.1.” Id. (emphasis added). The Agreement was silent on the issue of whether the Government could
withdraw a motion that it had already filed. Id. at 141.
The Second Circuit determined that the agreement
should be construed strictly against the Government,
and that, given the mandatory nature of the Government’s obligation to file a 5K1.1 motion upon a finding
that the defendant had sufficiently cooperated, it could
not withdraw the motion it had offered after initially
making such a finding. Id.
Padilla is factually inapposite, since the Cooperation Agreement made the decision to file a motion for
reduced sentence explicitly discretionary—rather than
mandatory—regardless of the sufficiency of Rothstein’s
cooperation. This distinction also disposes of another
of Rothstein’s contentions: that once the Government
asserted in the Rule 35 Motion that Rothstein had (to
date) rendered substantial assistance, the Government became permanently locked into that position.
DE 948 at 6-7. That argument does not help Rothstein,
since, even if the Government were to believe (presently and at all times past) that Rothstein has substantially cooperated, it still has no obligation to make
a motion on his behalf.
The other case that Rothstein primarily relies
upon, In re Arnett, 804 F.2d 1200 (11th Cir. 1986),
stands for the unremarkable propositions that a plea

App. 24
agreement must involve a defendant’s “voluntary, knowing, intelligent” waiver of his constitutional rights,3
and that the Government must adhere strictly to the
terms of the plea agreement. Id. at 1203-04. Both conditions are met here. Rothstein’s waiver of rights was
knowing, since the Government’s discretion to decide
whether or not to make a motion on his behalf was
explicitly provided for in the clear, unambiguous language of the Cooperation Agreement which he executed. And, by withdrawing the Rule 35 Motion, the
Government merely exercised that discretion in full
compliance with the terms of the Cooperation Agreement.
III. CONCLUSION
For the foregoing reasons, it is ORDERED and
ADJUDGED as follows:
1. The Government’s Motion to Withdraw its Motion for Reduction of Sentence [DE 938] is GRANTED.
The Government’s Motion for Reduction of Sentence
and for Stay of Ruling [DE 767] is hereby withdrawn.
2. Defendant’s Motion for Leave to File Sur-Reply
in Excess of 10 pages [DE 953] is GRANTED.

3

Rothstein also cites United States v. Hunter, 835 F.3d
1320, 1324 (11th Cir. 2016), for the related proposition that, since
a plea agreement involves the waiver of substantial constitutional
rights, it must adequately warn the defendant of the consequences
of his plea. While a clearly correct statement of law, Hunter does
not advance Rothstein’s position.

App. 25
3. The Government’s Motion to Strike Defendant’s Sur-Reply and Motion for Leave to File Sur-Reply
in Excess of 10 Pages [DE 954] is DENIED.
DONE AND ORDERED in Chambers at Fort
Lauderdale, Broward County, Florida, this 16th day of
April, 2018.
/s/ James I. Cohn
JAMES I. COHN
United States District Judge
Copies provided to counsel of record via CM/ECF

App. 26
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 09-60331-CR-COHN
UNITED STATES
OF AMERICA,
Plaintiff,
v.
SCOTT W. ROTHSTEIN,
Defendant.

/

PLEA AGREEMENT
(Filed Jan. 27, 2010)
The United States of America and SCOTT W.
ROTHSTEIN (hereinafter referred to as “the defendant”) enter into the following agreement:
1. The defendant agrees to plead guilty to the
five count Information, which charges the defendant in
Count 1 with a Racketeering Conspiracy, in violation
of Title 18, United States Code, Section 1962(d); in
Count 2 with Conspiracy to Commit Money Laundering, in violation of Title 18, United States Code, Section
1956(h); in Count 3 with Conspiracy to Commit Mail
Fraud and Wire Fraud, in violation of Title 18, United
States Code, Section 1349; and in Counts 4 and 5 with
Wire Fraud, in violation of Title 18, United States
Code, Section 1343.
2. The defendant is aware that the sentence will
be imposed by the Court after considering the Federal

App. 27
Sentencing Guidelines and Policy Statements (hereinafter “the Sentencing Guidelines”) in an advisory
capacity. The defendant acknowledges and understands that the Court will compute an advisory sentence under the Sentencing Guidelines and that the
applicable advisory guidelines will be determined by
the Court relying in part on the results of a PreSentence Investigation by the Court’s probation office,
which investigation will commence after the guilty
plea has been entered. The defendant is also aware
that, under certain circumstances, the Court may depart from the applicable advisory guideline range and
impose a sentence that is either more severe or less severe than the advisory guidelines range. The Court is
permitted to tailor the ultimate sentence in light of
other statutory concerns. Knowing these facts, the defendant understands and acknowledges that the Court
has the authority to impose any sentence within and
up to the statutory maximum authorized by law for the
offenses identified in paragraph 1 and that the defendant may not withdraw the plea solely as a result of the
sentence imposed.
3. The defendant also understands and acknowledges that the Court may impose a statutory maximum term of imprisonment of up to twenty years for
each of the offenses set forth in Counts 1 through 5, for
a total of up to one hundred years, followed by a term
of up to three years of supervised release for each offense. In addition to a term of imprisonment and supervised release, the Court may impose a fine of up to
$250,000.00 with respect to the offenses set forth in

App. 28
Counts 1, 3, 4, and 5, and may impose a fine with respect to the offense set forth in Count 2 of the greater
of $500,000.00 or twice the value of the property involved in the money laundering transactions.
4. The defendant further understands and acknowledges that, in addition to any sentence imposed
under paragraph 3 of this agreement, a special assessment in the amount of $100.00 with respect to each of
the offenses set forth in counts 1 through 5, for a total
of $500.00, will be imposed on the defendant, which
will be paid by the defendant at the time of entry of
this plea.
5. The defendant further understands and acknowledges that, in addition to any sentence imposed
under paragraphs 3 and 4 of this agreement, that restitution may be imposed as part of that sentence. The
defendant agrees that for purposes of triggering the
mandatory restitution provisions of Title 18, United
States Code, Section 3663A, the offenses to which the
defendant is pleading guilty under this agreement
in this case are “offenses against property” and were
“committed by fraud and deceit,” as those terms are
understood within Title 18, United States Code, Section 3663A(c)(1)(A)(ii). The defendant accordingly understands and acknowledges that as a result of his plea
of guilty pursuant to the terms of the plea agreement
in this case the Court may order that he pay restitution pursuant to the provisions of Title 18, United
States Code, Sections 3663A and 3664. Promptly following the entry of his guilty plea, the defendant agrees
to take all necessary steps to make the following

App. 29
property available, as partial satisfaction of any restitution order entered in this case: (a) all property subject to the post-Information Protective Order in this
matter; and (b) all property identified in the Bill of Particulars for Forfeiture.
6. The defendant further understands and acknowledges that, in addition to any sentence imposed
under paragraphs 3, 4 and 5 of this agreement, forfeiture may be imposed as part of that sentence. The defendant agrees to the forfeiture of all of his right, title
and interest to all assets listed in the Information and
listed in the Bill of Particulars, and/or their substitutes
(hereinafter “the assets”), whether controlled individually or through defendant’s wholly owned or partially
owned corporations or third-parties, which are subject
to forfeiture pursuant to Title 18, United States Code,
Sections 1963, 982(a)(1) and/or 981(a)(1)(C). The defendant agrees to assist the United States in achieving
forfeiture of the assets and agrees to assist the United
States with forfeiture of same, such assistance to include truthful testimony, especially to the extent that
the assets are in the names of corporations or other
entities or individuals. The defendant knowingly and
voluntarily waives any right to a jury trial or any other
adversarial proceeding regarding the assets and waives
any notification about forfeiture proceedings, whether
administrative or judicial. The defendant further waives
any statute of limitations with respect to the commencement of such forfeiture proceedings, whether administrative or judicial. The defendant also waives any
defenses to the forfeiture, including any claim of

App. 30
excessive fine or penalty under the Eighth Amendment. The defendant also agrees to waive any appeal
of the forfeiture. The defendant further acknowledges
that the property forfeited cannot, either in whole or in
part, be used to satisfy any obligation the defendant
may have for any federal, state or local taxes, interest
and/or other penalties which may now exist or which
may come into existence.
7. The Office of the United States Attorney for
the Southern District of Florida (hereinafter “this Office”) reserves the right to inform the Court and the
probation office of all facts pertinent to the sentencing
process, including all relevant information concerning
the offenses committed, whether charged or not, as
well as concerning the defendant and the defendant’s
background. Subject only to the express terms of any
agreed-upon sentencing recommendations contained
in this agreement, this Office further reserves the right
to make any recommendation as to the quality and
quantity of punishment.
8. The United States agrees that it will recommend at sentencing that the Court reduce by three levels the advisory sentencing guideline level applicable
to the defendant’s offense, pursuant to Section 3E1.1 of
the Sentencing Guidelines, based upon the defendant’s
recognition and affirmative and timely acceptance of
personal responsibility. However, the United States
will not be required to make this sentencing recommendation if the defendant: (1) fails or refuses to make
full, accurate and complete disclosure to the probation
office of the circumstances surrounding the relevant

App. 31
offense conduct; (2) is found to have misrepresented
facts to the government prior to entering this plea
agreement; or (3) commits any misconduct after entering into this plea agreement, including but not limited
to committing a state or federal offense or making false
statements or misrepresentations to any governmental entity or official.
9. The defendant is aware that the sentence
has not yet been determined by the Court. The defendant also is aware that any estimate of the probable sentencing range or sentence that the defendant may
receive, whether that estimate comes from the defendant’s attorney, the government, or the probation office,
is a prediction, not a promise, and is not binding on the
government, the probation office or the Court. The
defendant understands further that any recommendation that the government makes to the Court as to
sentencing, whether pursuant to this agreement or
otherwise, is not binding on the Court and the Court
may disregard the recommendation in its entirety. The
defendant understands and acknowledges, as previously acknowledged in paragraph 2 above, that the defendant may not withdraw his plea based upon the
Court’s decision not to accept a sentencing recommendation made by the defendant, the government, or a
recommendation made jointly by both the defendant
and the government.
10. In the event that the applicable offense level
is deemed by the Court to be 43 or above (life), the government agrees to not oppose a variance; however, the

App. 32
Government reserves the right to oppose any sentence
recommended by the defendant.
11. This agreement resolves the defendant’s
federal criminal liability in the Southern District of
Florida growing out of any criminal conduct by the defendant known to the United States Attorney’s Office
for the Southern District of Florida as of the date of
this plea agreement. Said provision does not prohibit
potential prosecution for any acts of violence presently
unknown to the United States.
12. The United States agrees that it will not oppose defendant’s request that the Court recommend to
the Bureau of Prisons that the defendant be designated to the lowest security level facility deemed appropriate by the Bureau of Prisons.
13. The defendant is aware that Title 18, United
States Code, Section 3742 affords the defendant the
right to appeal the sentence imposed in this case. Acknowledging this, and in exchange for the undertakings made by the United States in this plea agreement,
the defendant hereby waives all rights conferred by
Section 3742 to appeal any sentence imposed, including any restitution order, or to appeal the manner in
which the sentence was imposed, unless the sentence
exceeds the maximum permitted by statute or is the
result of an upward departure and/or a variance from
the guideline range that the court establishes at sentencing. The defendant further understands that nothing in this agreement shall affect the government’s
right and/or duty to appeal as set forth in Title 18,

App. 33
United States Code, Section 3742(b). However, if the
United States appeals the defendant’s sentence pursuant to Section 3742(b), the defendant shall be released
from the above waiver of appellate rights. By signing
this agreement, the defendant acknowledges that he
has discussed the appeal waiver set forth in this agreement with his attorney. The defendant further agrees,
together with the United States, to request that the
district court enter a specific finding that the defendant’s waiver of his right to appeal the sentence to be
imposed in this case was knowing and voluntary.
14. The defendant further waives any right to
file any motion or make any claim, whether under 28
U.S.C. §§2255, 2254, 2241, or any other provision of
law, to collaterally attack his conviction, his sentence,
or the manner in which sentence was imposed, unless
the sentence exceeds the maximum permitted by statute.
15. The defendant confirms that he is guilty of
the offenses to which he is pleading guilty; that his decision to plead guilty is the decision that he has made;
and that nobody has forced, threatened, or coerced him
into pleading guilty. The defendant affirms that he has
discussed the matter of pleading guilty in the abovereferenced cases thoroughly with his attorney. The defendant further affirms that his discussions with his
attorney have included discussion of possible defenses
that he may raise if the case were to go to trial, as well
as possible issues and arguments that he may raise at
sentencing. The defendant additionally affirms that he
is satisfied with the representation provided by his

App. 34
attorney. The defendant accordingly affirms that he is
entering into this agreement knowingly, voluntarily,
and intelligently, and with the benefit of full, complete,
and effective assistance by his attorney. The defendant
accordingly agrees that by entering into this agreement he waives any right to file any motion or make
any claim, whether under 28 U.S.C.§§2255, 2254, 2241,
or any other provision of law, that contests the effectiveness of counsel’s representation up to the time of
the entry of his guilty plea.
16. This is the entire agreement and understanding between the United States and the defendant. There
are no other agreements, promises, representations, or
understandings, unless contained in a letter from the
United States Attorney’s Office executed by all parties
and counsel prior to the change of plea.
JEFFREY H. SLOMAN
UNITED STATES ATTORNEY
Date:

1/25/10

/s/ Paul F. Schwartz
PAUL F. SCHWARTZ
ASSISTANT UNITED
STATES ATTORNEY

Date:

1/25/10

/s/ Jeffrey N. Kaplan
JEFFREY N. KAPLAN
ASSISTANT UNITED
STATES ATTORNEY

App. 35
Date: 25 Jan 10

/s/ Lawrence D. LaVecchio
LAWRENCE D. LaVECCHIO
ASSISTANT UNITED
STATES ATTORNEY

Date:

1/25/10

/s/ Marc Nurik
MARC NURIK
ATTORNEY FOR DEFENDANT

Date:

1/25/10

/s/ Scott W. Rothstein
SCOTT W. ROTHSTEIN
DEFENDANT

STATEMENT OF FACTS
The United States of America and SCOTT W.
ROTHSTEIN enter into the following stipulated statement of facts in support of the defendant’s plea of
guilty:
Had this case proceeded to trial, the government
would have presented evidence which would have established beyond a reasonable doubt that from in or
about 2005, through in or about November 2009, Defendant ROTHSTEIN conspired with persons known
and unknown to the United States Attorney, to use the
law firm, Rothstein, Rosenfeldt and Adler P.A. (hereinafter referred to as “RRA”) as a criminal Enterprise in
order to conduct a pattern of racketeering activity.
Such pattern of racketeering activity included criminal
acts which violated mail fraud, wire fraud, money
laundering and conspiracy statutes.

App. 36
The government would have presented evidence at
trial which would have involved witness testimony and
documentary and electronic evidence seized pursuant
to a search warrant. The government’s trial evidence
would have established the following:
Defendant ROTHSTEIN was an attorney admitted to practice law in Florida. He was the Chief Executive Officer and Chairman of RRA. In or about 2005,
Defendant ROTHSTEIN and other co-conspirators initiated a scheme to generate criminal proceeds through
fraudulent acts. Defendant ROTHSTEIN induced investors through the use of false statements to loan
money to himself and fictitious borrowers in return for
promissory notes. He solicited bridge loans on behalf of
purported clients of RRA, that is, he would falsely inform individuals that clients of RRA desired to borrow
funds for undisclosed business deals and in return
would agree to pay high rates of interest. Defendant
ROTHSTEIN was aware that no such clients or requests for business financing actually existed.
Defendant ROTHSTEIN and co-conspirators also
solicited investors to purchase purported confidential
settlement agreements. Such settlement agreements
were falsely presented as having been reached between putative defendants based upon claims of sexual
harassment and/or whistle-blower actions. The investors were falsely informed that such settlement agreements were pre-litigation and therefore there was no
pending litigation or court oversight. Defendant ROTHSTEIN and other co-conspirators relied upon the purported success of RRA, the existence of actual RRA

App. 37
civil matters and his standing in the community to lure
potential investors in order to convince them to make
such investments. The investors were falsely informed
that the confidential settlement agreements were available for purchase. The purported settlements were allegedly available in amounts ranging from hundreds of
thousands of dollars to millions of dollars and could be
purchased at a discount and repaid to the investors at
face value over time. For instance, in or about late
2009, a potential investor was solicited by Defendant
ROTHSTEIN and/or co-conspirators to purchase a
purported settlement in the amount of $450,000. The
settlement was alleged to be paid to the purported
plaintiff in three installments of $150,000 each, over
the course of three months. The payment schedule was
alleged to insure the confidentiality of the settlement.
The purported plaintiff allegedly had agreed to accept
an immediate payment of $375,000 in satisfaction of
the settlement agreement. In order to facilitate the
scheme, the investor received a fraudulent settlement
agreement which set forth the terms of the civil settlement, but the names of the purported plaintiff and defendant were excised due to the alleged confidentiality
of the settlement.
The government would further establish that in
order to facilitate and perpetrate the scheme, Defendant ROTHSTEIN and co-conspirators created false
and fraudulent settlement agreements, bank statements,
assignments of settlement agreements, sale and transfer agreements and personal guarantees, among other
documents.

App. 38
Defendant ROTHSTEIN and other co-conspirators
falsely informed investors that the purported confidential settlements were either negotiated on behalf of clients of RRA or had been referred by other law firms.
The investors were falsely informed that the purported
settlements were based upon sexual harassment and/
or whistle-blower (qui-tam) actions against corporate
defendants.
Defendant ROTHSTEIN and other co-conspirators
established and maintained trust accounts at several
financial institutions in order to receive the investor
funds and to give the appearance of legitimacy and security. False and fictitious trust account bank balance
statements were created along with purported “lock
letters.” Such letters allegedly reflected that the funds
in the trust accounts would be disbursed only to specific investors. Instead funds were disbursed among
and between the various trust accounts and elsewhere
by interstate wire transfers and other means in order
to facilitate, promote and conceal the fraud, to launder
the proceeds derived therefrom, and to enrich ROTHSTEIN and his co-conspirators. ROTHSTEIN and his
co-conspirators created fraudulent on-line banking documents to further mislead investors and to facilitate
the fraud.
Defendant ROTHSTEIN and co-conspirators also
initiated and conducted a separate scheme to defraud
clients of RRA in order to perpetuate the “Ponzi” scheme.
Such clients had retained RRA to institute and file a
civil lawsuit. Unknown to the clients, RRA settled the
lawsuit and had obligated the clients to pay $500,000

App. 39
to the defendant. In order to perpetrate the fraud and
deceive the clients, defendant ROTHSTEIN created a
false and fraudulent court order purportedly signed by
a Federal District Court Judge which falsely alleged
that the clients of RRA had prevailed in the lawsuit
and were owed a judgement of approximately $23 million. The fraudulent court order also falsely stated that
the defendant had transferred funds to the Cayman Islands for the purpose of secreting the assets.
Defendant ROTHSTEIN and other co-conspirators
falsely advised the clients on several occasions that in
order to recover the defendant’s funds, they had to post
bonds to be held in the RRA trust account. Defendant
ROTHSTEIN and other co-conspirators fraudulently
caused the clients to wire transfer a total of approximately $57 million over several years to a trust account
controlled by defendant ROTHSTEIN, purportedly to
satisfy the bonds. Defendant ROTHSTEIN and other
co-conspirators were questioned by the clients as to the
progress of the alleged lawsuit. In order to delay the
return of funds to the clients, defendant ROTHSTEIN
fraudulently created a false Federal court order purportedly issued by a United States Magistrate Judge
ordering RRA to return the transmitted funds by a
later date.
Defendant ROTHSTEIN and other co-conspirators
utilized funds obtained through the “Ponzi” scheme to
supplement and support the operation and activities of
RRA, to expand RRA by the hiring of additional attorneys and support staff, to fund salaries and bonuses,
and to acquire larger and more elaborate office space

App. 40
and equipment in order to promote the ongoing scheme
and to enrich the personal wealth of persons employed
by and associated with RRA.
Defendant ROTHSTEIN and other co-conspirators
engaged in the below described conduct in order to facilitate the activities of the Enterprise and to conceal
and promote the scheme to defraud investors.
Defendant ROTHSTEIN and other co-conspirators
utilized funds illegally obtained through the “Ponzi”
scheme to make political contributions to local, state
and federal political candidates, in a manner designed
to conceal the true source of such funds and to circumvent state and federal laws governing the limitations
and contribution of such funds.
Defendant ROTHSTEIN and other co-conspirators
distributed lavish gifts, including exotic cars, jewelry,
boats, loans, cash and bonuses, to individuals and to
members of RRA in order to engender goodwill and loyalty and to create the appearance of a successful law
firm.
Defendant ROTHSTEIN and other co-conspirators
made large charitable contributions to public and private charitable institutions, including hospitals and
other legitimate charitable and nonprofit organizations, using funds derived from the “Ponzi” scheme.
“Ponzi” scheme funds were also used to provide gratuities to high-ranking members of police agencies in order to curry favor with such police personnel and to
deflect law enforcement scrutiny of RRA.

App. 41
Defendant ROTHSTEIN and other co-conspirators
utilized funds obtained through the “Ponzi” scheme in
order to purchase controlling interests in restaurants
located in the Southern District of Florida. Such restaurants were used in part as a mechanism to give gratuities to individuals, including politicians, business
associates and attorneys, in order to foster goodwill
and loyalty, as locations to solicit potential investors
and as secure locations for conspiratorial meetings.
Defendant ROTHSTEIN and other co-conspirators
associated with well known politicians, in public forums and elsewhere, in order to gain greater notoriety
and to create the appearance of wealth and legitimacy.
Such acts were calculated in part to enhance defendant
ROTHSTEIN and other co-conspirators’ ability to solicit potential investors in the “Ponzi” scheme.
Defendant ROTHSTEIN and other co-conspirators
used funds derived from the “Ponzi” scheme to maintain the appearance of affluence and wealth, by purchasing expensive real and personal property, in order
to convince potential investors of the legitimacy of
RRA and of the purported investment opportunities.
Defendant ROTHSTEIN purchased expensive real property, personal property, business interests, vessels, vehicles and other indicia of success and wealth.
The government’s evidence would establish that
Defendant ROTHSTEIN and co-conspirators, through
the use of RRA as the criminal Enterprise, knowingly
and intentionally engaged in the above-described pattern of racketeering activity in order to generate

App. 42
proceeds for their enrichment through various criminal activities, including mail fraud, wire fraud and
money laundering. The government’s evidence would
establish that the activities of the Enterprise affected
interstate commerce through the transmission of funds
among and between financial institutions and across
state boundaries, among other means.
The Enterprise maintained offices in Broward
County, Florida, and elsewhere and the pattern of
racketeering activity emanated from the Southern District of Florida. Investors were solicited through wire
and mail transmissions through the United States
and elsewhere. In order to further the fraud scheme,
Defendant ROTHSTEIN and other co-conspirators
caused to be transmitted wire communications, in interstate and foreign commerce, including an interstate
wire transfer sent from TD Bank to Gibraltar Bank on
or about December 2, 2008 and an interstate wire
transfer sent to TD Bank from JP Morgan Chase on or
about October 16, 2009. The proceeds derived from the
“Ponzi” scheme were laundered through the accounts
maintained at several financial institutions in order to
promote, carry on and conceal the criminal activities of
RRA.
Had the forfeiture portion of the case proceeded to
trial, the government would have established, at least
by a preponderance of the evidence, the standard of
proof required for sentencing, that the properties listed
for forfeiture in the forfeiture allegations of the Information and in the Bill of Particulars for Forfeiture, were properly sought for forfeiture because the

App. 43
defendant acquired or maintained an interest therein or were derived from proceeds obtained directly
and indirectly through the commission of the abovedescribed racketeering activity. The government would
have further established that the properties were involved in and/or were traceable to the money laundering activity described above, and that such properties
were also the proceeds of, or were derived from, the
mail and wire fraud activity described above.
The undersigned hereby stipulate and agree that
the aforesaid facts are true and correct and that they
encompass all of the necessary elements to establish
the guilt of the defendant to the charges of Conspiracy
to Violate the RICO Act, in violation of Title 18, United
States Code, Section 1962(d); Conspiracy to Commit
Money Laundering, in violation of Title 18, United States
Code, Section 1956(h); Conspiracy to Commit Mail
Fraud and Wire Fraud, in violation of Title 18, United
States Code, Section 1349; and Wire Fraud, in violation
of Title 18, United States Code, Section 1343.
JEFFREY H. SLOMAN
UNITED STATES ATTORNEY
Date:

1/25/10

/s/ Paul F. Schwartz
PAUL F. SCHWARTZ
ASSISTANT UNITED
STATES ATTORNEY

Date:

1/25/10

/s/ Jeffrey N. Kaplan
JEFFREY N. KAPLAN
ASSISTANT UNITED
STATES ATTORNEY

App. 44
Date: 25 Jan 10

/s/ Lawrence D. LaVecchio
LAWRENCE D. LaVECCHIO
ASSISTANT UNITED
STATES ATTORNEY

Date:

1/25/10

/s/ Marc Nurik
MARC NURIK
ATTORNEY FOR DEFENDANT

Date:

1/25/10

/s/ Scott W. Rothstein
SCOTT W. ROTHSTEIN
DEFENDANT

App. 45
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. . 09-60331-CR-COHN
UNITED STATES OF AMERICA,
Plaintiff,
vs.
SCOTT W. ROTHSTEIN,
Defendant.
/
MOTION FOR REDUCTION OF SENTENCE
AND FOR STAY OF RULING
(Filed Jun. 8, 2011)
COMES NOW the United States of America, by
and through its undersigned Assistant United States
Attorney and, pursuant to Rule 35(b) of the Federal
Rules of Criminal Procedure, moves the Court for a reduction of the sentence of defendant Scott W. Rothstein, based upon the defendant having provided
substantial assistance to the government in the investigation and/or prosecution of others, and further
moves the Court to stay any ruling on this motion until
the defendant’s cooperation is complete. In support the
government states the following:
1. On January 27, 2010, defendant Scott W. Rothstein pled guilty to charges of RICO Conspiracy, in violation of 18 U.S.C. §1962(d); Conspiracy to Commit
Money Laundering, in violation of 18 U.S.C. §1956(h);

App. 46
Conspiracy to Commit Mail and Wire Fraud, in violation of 18 U.S.C. §1349; and two counts of Wire Fraud,
in violation of 18 U.S.C. §1343. The defendant was sentenced to 50 years’ imprisonment on June 9, 2010.
2. The instant motion is filed timely within one
year of the defendant’s sentencing.
3. Prior to the defendant’s guilty plea, the defendant began cooperating with the United States
in the investigation of others. The defendant has continued to cooperate with federal law enforcement authorities in its criminal investigation. However, that
cooperation is not yet complete and will not be complete within one year of the defendant’s initial sentencing.
4. Some of the information provided by the defendant to the government within one year of the sentencing has not yet become useful to the government
as the investigation is ongoing and has not yet reached
fruition.
5. While Rule 35(b)(2), Fed.R.Crim.P., allows a
Rule 35 motion to be made more than one year after
sentencing in such a case, the instant motion is filed in
an abundance of caution to preserve this Court’s jurisdiction under Fed.R.Crim.P. 35(b)(1), and to permit the
Court to consider all of the defendant’s cooperation in
order to determine the appropriateness of a reduction
of the defendant’s sentence.
6. Upon completion of the defendant’s cooperation, the government will file a motion for a hearing at

App. 47
which time the government will advise the Court of the
nature, extent, and value of the defendant’s cooperation. It is requested, however, that the Court stay any
ruling on the instant motion until the government files
the motion for such a hearing.
7. The United States expressly reserves the right
to withdraw this motion if, in the judgment of the
United States, the defendant should fail to comply with
the terms of his plea agreement, fail to testify truthfully, or falsely implicate any person or entity.
8. Marc S. Nurik, attorney for the defendant,
joins in the filing of this motion.
WHEREFORE, for the reasons stated herein, the
government requests this Court to grant the motion for
reduction of sentence and to stay any ruling as to sentence reduction until the government moves for a hearing once the defendant’s cooperation is complete or
such earlier time, within the discretion of the government.
Respectfully submitted,
WIFREDO A. FERRER
UNITED STATES ATTORNEY
BY: /s/ Lawrence D. LaVecchio
LAWRENCE D. LaVECCHIO
ASSISTANT U.S. ATTORNEY
Florida Bar No 0305405
E-mail: lawrence.lavecchio@usdoj.gov
500 East Broward Blvd., Suite 700
Fort Lauderdale, FL 33394

App. 48
Telephone: (954) 356-7255
Fax: (954) 356-7230
[Certificate Of Service Omitted]

